Audit of Global Bureau's Center for Economic Growth and
 Agricultural Development's Performance Monitoring for
  Indicators Appearing in the Fiscal Year 2002 Results
          Review and Resource Request Report


                 Report No. 9-000-00-003-P
                    September 26, 2000




                   Washington, D.C.
                                                                          September 26, 2000




MEMORANDUM

TO:            G/EGAD, Deputy Assistant Administrator, Emmy L. Simmons

FROM:          IG/A/PA, Director, Dianne L. Rawl

SUBJECT:       Audit of Global Bureau's Center for Economic Growth and Agricultural
               Development's Performance Monitoring for Indicators Appearing in the Fiscal
               Year 2002 Results Review and Resource Request Report
               (Report No. 9-000-00-003-P)


This is our final report on the subject audit. We received your written comments on the draft
report, and we have included them in Appendix II.

This report contains three recommendations for your action. Your written comments identify
comprehensive plans for addressing Recommendation Nos. 1 and 2. We concur with the
actions that you plan to take to correct the weaknesses noted during our audit. Accordingly, we
concur that management decisions have been reached on Recommendation Nos. 1 and 2. In
addition, because the Global Bureau's Center for Economic Growth and Agricultural
Development took appropriate action on Recommendation No. 3, we consider this
recommendation closed.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.


Background

USAID has developed a system to assess its progress in achieving its objectives. That
system—called a performance monitoring system—is an organized process for
systematically monitoring the progress of a program, process, or activity towards its
objectives over time. USAID's performance monitoring consists of:

•   establishing performance indicators,

•   preparing performance monitoring plans,
•   setting performance baselines, and

•   assessing data quality.

Performance monitoring systems also include the regular collection of results data. Those
data are reported in the Results Review and Resource Request (R4) report—the most
significant performance report that the operating units send to their respective bureaus. The
data in the R4 report are used for a variety of purposes, such as internal analyses, responding
to external inquiries, and USAID-wide reporting. Therefore, the data should be as complete,
accurate, and consistent as possible.

In April 2000, the Center issued its fiscal year 2002 R4 report, which highlights fiscal year 1999
program accomplishments and lays out resource requirements for fiscal year 2002. In fiscal
year 1999, the Center had "strategic objectives" in the areas of (1) agricultural development,
(2) emerging markets, (3) business development, and (4) microenterprise development. It also
managed, under a "special objective," activities to increase cooperation in the Middle East
through the use of U.S.-Israeli technical expertise. The Center measured its progress towards
achieving these objectives using 17 performance indicators. In the fiscal year 2002 R4 report,
the Center requested $82.65 million to support its four strategic objectives and one special
objective.


Audit Objective
This audit is one in a worldwide series of audits that was requested by USAID's Bureau for
Policy and Program Coordination. The audit objective and methodology for this series of
audits were developed in collaboration with Bureau for Policy and Program Coordination.
This audit was performed by OIG's Performance Audits Division in Washington, D.C., and
answered the following audit objective:

       Did Global Bureau's Center for Economic Growth and Agricultural
       Development monitor performance in accordance with Automated Directives
       System E203.5.5 and other relevant guidance as demonstrated by indicators
       appearing in its Results Review and Resource Request report for fiscal year
       2002?

Appendix I contains a discussion of the scope and methodology for the audit.


Audit Findings
Did Global Bureau's Center for Economic Growth and Agricultural Development
monitor performance in accordance with Automated Directives System E203.5.5 and
other relevant guidance as demonstrated by indicators appearing in its Results Review
and Resource Request report for fiscal year 2002?
                                               2
The Center did not fully monitor performance in accordance with Automated Directives
System (ADS) E203.5.5 as demonstrated by indicators appearing in its R4 report for fiscal
year 2002.

The Center's R4 report included 17 performance indicators to measure the progress of its
programs. This audit reviewed six indicators, with at least one selected from each of the
Center's strategic and special objective areas. Based on the indicators reviewed, the Center
generally established baselines in accordance with USAID guidance. However, in its fiscal
year 2002 R4 report, the Center did not:

•   report credible, supported results for three of the indicators reviewed and

•   disclose data limitations applicable to three indicators reviewed.

The Center needs to (1) ensure that performance monitoring pla ns are prepared and carried
out to better ensure that credible, supported results are reported and (2) assess the quality of
performance data reported in the R4 to identify and disclose data limitations, if any, when
data are reported. These opportunities for improvement are discussed below and summarized
in Appendix III.


The Center Needs to Prepare and
Carry Out Performance Monitoring Plans

Contrary to USAID requirements, the Center did not report credible, supported results for
three of the six indicators reviewed. This occurred largely because the Center had not
prepared and carried out performance monitoring plans as required. As a result, USAID
management, Congress, and other stakeholders did not always have credible, supported
information concerning program results to use for decision-making purposes.

       Recommendation No. 1: We recommend that the Director of Global
       Bureau's Center for Economic Growth and Agricultural Development
       prepare performance monitoring plans in accordance with USAID
       requirements.

The following paragraphs describe this opportunity for improvement in detail.

ADS E203.5.5e requires operating units to ensure that performance data are credible and
accurately reflect the process being measured. Data crebility has several elements, including
the extent to which data are:

•   Consistent – data should be collected using the same procedures and definitions over
    time,
                                              3
•   Complete – enough data should be collected to represent the population, and

•   Accurate – data should be free from significant error. 1

For data to be credible, it must be seen by potential users to be of sufficient quality to be
trustworthy. Performance monitoring plans are one way of ensuring that data are credible.
According to ADS E203.5.5e, performance monitoring plans should be prepared for each
operating unit's strategic plan. The following should be documented in performance
monitoring plans:

•   Definition of the indicator—in detail;

•   Identification of the data source, including:

    (1) Method of collection, and

    (2) Schedule of collection for all required data; and

•   Assignment of responsibility for data collection to a specific office, team, or individual.

Contrary to requirements, the Center did not report credible, supported results for three of the
six indicators reviewed. This occurred primarily because the Center had not prepared and
carried out detailed performance monitoring plans. Specifically, the Center had not prepared
performance monitoring plans for five of the six indicators. In addition, the one performance
monitoring plan lacked specificity. If the Center had prepared and carried out performance
monitoring plans in accordance with requirements, the data credibility and support problems
identified below would likely not have occurred.

•   Under its "Business Development" strategic objective, the Center reported the value of
    the "Completed Transactions" it had facilitated. This indicator was intended to measure
    the value of agreements that the Center facilitated for foreign firms to purchase
    technology developed by U.S. companies. In its R4 report, the Center labeled results as
    "calendar year," but the amount reported included a "fiscal year" 1999 transaction of
    $50 million. 2 However, in its prior R4 report, the Center labeled the data it reported as
    "fiscal year" results. Program officials were not able to provide an explanation for the
    change. Based on a review of the Center's supporting documentation, it is unclear whether
    the correct reporting period was "fiscal year" or "calendar year." For instance, the

        1
          GAO Report No. GAO/GGD-99-139, "Performance Plans: Selected Approaches for Verification and
Validation of Agency Performance Information," July 1999.
        2
         If the R4 report was correct in reporting results as "calendar year," the inclusion of the $50 million
would have resulted in an overstatement of 32 percent.

                                                     4
    supporting documentation grouped some transactions by calendar year, while others were
    grouped by fiscal year. Further, the supporting documentation did not identify the
    completion dates for many transactions. This reporting period confusion—which impacts
    the credibility of the data reported—could have been avoided if the Center had prepared a
    performance monitoring plan. If the Center had prepared and carried out a performance
    monitoring plan that covered this indicator, the plan would have contained a detailed
    definition of the indicator, specifying the reporting period, which would have helped
    different people at different times to collect comparable data. 3

•   The Center also had credibility and support problems for the indicator "Number of
    Delivery Orders," an indicator intended to measure mission "buy-ins" to the Center's
    activities. Although the Center's 1999 results agreed with supporting documentation, the
    Center could not support its 1998 results of 115 delivery orders. In an attempt to support
    the results, program officials ran a report from the Center's database. That report
    identified 135 delivery orders for 1998—a 17 percent difference. Program officials were
    not able to explain the difference but speculated that, if the original report was generated
    on September 30, 1998, all of the fiscal year 1998 delivery orders might not have been
    entered into the database. They noted that this may have been due to mail transit time or
    other delays. Program officials felt that procedures for collecting data to report on this
    indicator were fairly simple and, therefore, did not require a written performance
    monitoring plan. Nevertheless, a properly executed performance monitoring plan would
    have included a schedule for data collection efforts to ensure that all delivery orders are
    entered into the database before fiscal year summary reports are generated for inclusion
    in the R4 reports.

•   The Center did not report credible results for the indicator "Utilization Rate" for the
    Center's loan guarantee portfolio, an indicator intended to measure the Center's ability to
    estimate loan defaults. Specifically, the Center reported the utilization rate as 25 percent
    in 1999, but documentation provided to the auditors revealed that the utilization rate
    should have been calculated as 15 percent. The Center, therefore, overstated results by
    67 percent. In attempting to explain the difference, program officials stated that the
    Center meant to report not only on the loan guarantee portfolio, but on the entire Micro
    and Small Enterprise Development program. Although the Center did have a
    performance monitoring plan for this indicator, the plan lacked specificity. If the Center
    had clearly defined the unit of analysis (whether loan guarantee portfolio or the entire
    Micro and Small Enterprise Development program) and specified the methodology to
    collect and calculate the data in its performance monitoring plan, the correct rate likely
    would have been reported.

         3
           The Center did have a procedures manual for tracking "Completed transactions," which was used in
lieu of a plan. However, that manual did not include the specific elements required in a performance
monitoring plan. The Center acknowledged that (1) efforts to gather information about completed transactions
must be strengthened, (2) the definition of a "completed transactions" needs to clarified, and (3) dates need to be
confirmed before deals are considered "completed transactions."

                                                       5
Performance monitoring plans are needed to better ensure that credible, supported data are
reported in the R4 report. However, because the Center did not prepare detailed performance
monitoring plans for the indicators reviewed, data credibility problems occurred as discussed
above. As a result, USAID management, Congress, and other stakeholders did not always
have credible, supported information concerning program results to use for decision-making
purposes.


The Center Needs to Disclose
Data Limitations in its R4 Report

Contrary to USAID guidance, the Center did not disclose data limitations in the R4 report for
three of the six indicators reviewed. This occurred because data quality assessments for
those indicators were either inadequate to identify the significance of the limitation or not
performed at all. As a result, USAID management, Congress, and other stakeholders did not
have sufficient information to determine how much reliance could be placed on the data.

       Recommendation No. 2: We recommend that the Director of Global
       Bureau's Center for Economic Growth and Agricultural Development
       (1) perform data quality assessments in accordance with USAID
       requirements and (2) maintain the results of those assessments in the
       performance monitoring files.

       Recommendation No. 3: We recommend that the Director of Global
       Bureau's Center for Economic Growth and Agricultural Development
       revise its Results Review and Resource Request report for fiscal year
       2002 (prepared in 2000) to disclose known data limitations in accordance
       with USAID guidance.

The following paragraphs describe this opportunity for improvement in detail.

ADS E203.5.5e requires that data quality be initially assessed as part of the process of
establishing performance indicators and choosing data collection sources and methods, and
periodically assessed at least every three years thereafter. The purpose of a data quality
assessment is to identify data limitations—information needed to assist users in determining
how much reliance can be placed on the data for decision-making purposes. Data limitations
are defined as errors that would lead to an inaccurate assessment of a program's progress
towards achieving its goals.

In December 1999, USAID's Bureau for Policy and Program Coordination issued guidance to
operating units for preparing their fiscal year 2002 R4 reports. That guidance required
operating units to use the comments section of their reports for reporting on data quality
issues. Specifically, the comments section of the R4 report was to be used to discuss:


                                            6
        …the degree to which achievement of a target is attributable to USAID.…
        Further inclusions to the comments section are: Whether and how the
        operating unit assessed the reliability of performance data provided by others
        (e.g., contractors, host gov.), plans to verify and validate performance data,
        and significant data limitations and their implications for measuring
        performance results against anticipated performance targets.

Also, the R4 guidance stated that operating units must avoid appearing to claim results as
their own that were largely based on the efforts of others. A major revision of the ADS
(issued after the audit fieldwork was finished) reaffirms the importance of data quality.
Specifically, section 203.3.6 states:

        Any data quality limitations must be noted in either the text or in the 'notes'
        section of the data table…. By reporting data shortcomings and efforts to
        address them, R4 reports gain credibility and the confidence of the Agency's
        stakeholders. Awareness of data limitation is also important in ensuring the
        quality of management decision-making by Operating Units and their SO
        [Strategic Objective] Teams.

That revision further states that the results of data quality assessments should be documented
in the performance management files. We believe that documentation should include (1) a
description of the limitations, (2) the significance of the limitations when judging the extent
to which goals have been achieved, and (3) the steps being taken or proposed to address the
limitations.

Contrary to USAID guidance, three of the six indicators reviewed had data limitations that
were not disclosed in the R4 report. Those limitations were not disclosed because data
quality assessments for those three indicators were either inadequate to identify the
significance of the limitation or not performed at all.

The Center had performed a data quality assessment for the indicator "Increases in
Per-Capita Food Production at Global/Regional Level," an indicator which was intended to
measure food availability in developing countries. The comments section of the R4 report
did disclose one data limitation because the Center's data quality assessment had considered
the impact of the limitation on users. 5 However, the data quality assessment did not consider
the impact of all known limitations on users. Specifically, to report on this indicator, the
Center used data that the Food and Agriculture Organization (the Organization) of the United
Nations collected and reported. According to the Organization, it compiles data, which are
analyzed and interpreted to support the results of its own programs and activities. USAID

        4
          U.S. General Accounting Office Report No. GAO/GGD-10.1.20, "The Results Act: An Evaluator’s
Guide to Assessing Agency Annual Performance Plans," April 1998.
        5
            The data for fiscal year 1999 results were based on a "preliminary number."

                                                       7
officials were aware that this data did not represent the results of the Center's programs in
isolation from other donor programs or environmental factors. However, this was not
disclosed as a data limitation in the comments section of the R4 report because the Center's
data quality assessment for this indicator did not consider the impact of this limitations on the
users.

Two additional indicators had data limitations that were not disclosed because the Center had
not performed data quality assessments for those indicators at all. Data quality assessments
would have (1) described the limitations and (2) considered the significance of the limitations
for measuring performance results against anticipated performance targets. Performing a
data quality assessment would provide the Center with information needed to properly
disclose data limitations in accordance with guidance. Those two examples are described in
the following paragraphs.

•   Under its "Business Development" strategic objective, the Center reported the value of
    the "Completed Transactions" it had facilitated. This indicator was intended to measure
    the value of agreements that the Center facilitated for foreign firms to purchase
    technology developed by U.S. companies. However, the Center did not assess the quality
    of this data. Program officials acknowledged that U.S. companies were not obligated to
    report completed transactions to the Center and were sometimes reluctant to report their
    success in new markets for fear of facing increased competition. The audit also identified
    weaknesses in the tracking system to collect data for this indicator. 6 As a result of these
    problems, program officials did not have assurance that the results reported in the R4
    report were complete. However, this was not disclosed as a data limitation in the
    comments section of the R4 report because the Center had not performed a data quality
    assessment to identify data limitations and assess the impact of those limitations on the
    users. Although the Center stated that it had performed data assessment-type activities,
    program officials did not have documentation to demonstrate that a data quality
    assessment had been performed. 7

•   The Center reported on the indicator "Increased Number of Joint Publications," an
    indicator intended to measure the number of articles jointly authored by Israeli and
    Middle Eastern scientists on development issues. The Center collected and reported data
    for this indicator based on the number of joint publications identified in grant recipients'
    reports. However, at the time the R4 report was prepared, the Center had not yet received
    14 percent of the reports from grant recipients that would have identified joint
    publications. Program officials acknowledged that the results reported in the R4 report
    were based on incomplete data, but did not disclose the failure of some grant recipients to


        6
            Program officials acknowledged those weaknesses and have begun to take corrective action.
        7
           GAO, "Standards for Internal Control in the Federal Government," November 1999, states that
internal control and significant events need to be clearly documented and readily available for examination.

                                                      8
    file reports on time as a data limitation. 8 However, this was not disclosed as a data
    limitation in the comments section of the R4 report because the Center had not performed
    a data quality assessment to identify data limitations and assess the impact of those
    limitations on the users. Instead of performing a data quality assessment, the Center
    relied on the internal controls built into the grant program itself, but those controls did not
    include an assessment of data quality. 9

Data quality assessments are needed to identify and permit disclosure of data limitations and
to ensure that users are aware of how much reliance can be placed on the results reported in
the R4 report. However, because the Center had not performed proper data quality
assessments for three of the six indicators reviewed, data limitations were not disclosed as
discussed above. As a result, USAID management, Congress, and other stakeholders do not
have sufficient information to determine how much reliance can be placed on the data.


Management Comments and Our Evaluation

Center officials agreed with all of the findings and recommendations. As a result, management
decisions have been reached on Recommendation Nos. 1 and 2. In addition, the Center has
taken appropriate corrective actions on Recommendation No. 3. Specifically, the Center
amended the tables in its R4 report to disclose known data limitations and re-issued its fiscal
year 2002 R4 report with those changes. We agree with the Center's final action and,
accordingly, Recommendation No. 3 is closed. The Center's written response to our draft
audit report is included in Appendix II, with the exception of the cited Attachments.


         8
           Program officials have recognized that the reporting process is a recurring problem and have begun
corrective action. For instance, each grant agreement now requires a brief semiannual report and a more
thorough annual report, with a stipulation that failure to file such reports will result in suspension or termination
of the grant.
         9
           One such internal control was a review of grant proposals to determine whether the subject matter of
joint publications would address developmental issues.




                                                        9
                                                                                    Appendix I
                                                                                    Page 1 of 2




                            Scope and Methodology


Scope

This audit of the Center's controls over performance monitoring was conducted in
accordance with generally accepted government auditing standards. The audit assessed
the Center's internal controls governing the quality of data reported in its fiscal year 2002
R4 report. Specifically, the audit addressed whether: (1) baselines were established,
(2) adequate performance monitoring plans were completed, (3) data quality assessments
were performed, and (4) data reported in the subject R4 report complied with reporting
requirements.

This audit did not review the Center's entire R4 report for fiscal year 2002 (prepared in
calendar year 2000). Instead, the audit examined 6 of the 17 indicators in the R4 report,
with at least one indicator selected from each of the Center's strategic and special
objectives. Those six indicators were selected judgmentally.

The auditors reviewed performance monitoring documentation: including, performance
monitoring plans (when available); strategic planning documentation; and R4 reports for
fiscal years 1999, 2001 and 2002. The auditors also reviewed documentation to support
the 1999 results and baselines (when available) and data quality assessments (if
performed). In addition, the auditors interviewed program officials and support
contractors. The audit did not assess the performance indicators themselves, and only
limited tests were performed on the data itself.

The fieldwork was conducted in Washington, D.C., from April 14, 2000, through
August 9, 2000.


Methodology

The audit began with a series of meetings with program officials to discuss each indicator
reported in the R4. Based on those meetings, a judgmental sample of indicators was
selected for review. Using ADS E203.5.5 and other guidance, 10 the basic controls tested
were whether the Center:
        10
           Other relevant guidance included USAID Bureau for Policy and Program Coordination, "FY
2002 Results Review and Resource Request Guidance," December 3, 1999; U.S. General Accounting
Office Report No. GAO/GGD-10.1.20, "The Results Act: An Evaluator's Guide to Assessing Agency
Annual Performance Plans," April 1998; and USAID Center for Development Information and Evaluation
TIPS No. 7, "Preparing a Performance Monitoring Plan," 1996.
                                                                                 Appendix I
                                                                                 Page 2 of 2


•   Established indicator baseline data either in the strategic plan or a subsequent Results
    Review and Resource Request report;

•   Prepared performance monitoring plans that (1) contained a detailed definition of the
    indicator that set forth precisely all technical elements of the indicator, (2) identified
    all data sources, (3) described the data collection method in sufficient detail to enable
    it to be applied consistently in subsequent years, (4) specified frequency and schedule
    of data collection, and (5) assigned responsibility for collecting data;

•   Completed an assessment of data quality for the indicators at an interval of no greater
    than three years;

•   Reported data that were adequately supported by source documents;

•   Reported baseline data in the R4 that were comparable to the data reported for the
    indicator; and

•   Disclosed known data limitations (if any) in the comments section of the R4 report.

The underlying premise for this audit was that performance monitoring provides
reasonable assurance that data reported meet USAID's quality standards.

An error threshold of plus or minus five percent was used to assess whether the reported
results agreed with source documentation. In forming an overall opinion on whether the
Center monitored performance in accordance with USAID guidance, we reviewed a
summary of the Center's performance monitoring controls in four areas: (1) establishing
baselines, (2) preparing performance monitoring plans, (3) assessing data quality, and
(4) reporting results in the R4 report. (Appendix III summarizes the results our review of
these controls.)
                      Appendix II
                       Page 1 of 5




Management Comments
Appendix II
 Page 2 of 5
Appendix II
 Page 3 of 5
Appendix II
 Page 4 of 5
Appendix II
 Page 5 of 5
                                                                                                                                                          Appendix III
                                                                                                                                                           Page 1 of 1




                                                                Summary Schedule

   The following table summarizes Global Bureau's Center for Economic Growth and Agricultural Development's performance
   monitoring controls for indicators appearing in its fiscal year 2002 R4 report.

                                                                             In the Performance Monitoring Plan…                                        In the R4 Report…
                                                1.            2.          3.           4.           5.           6.               7.           8.       9.              10.
                                                Baseline      Indicator   Data         Data         Data         Responsibility   Data         Data     Comparable Data
                  Indicator                     Established   Precisely   Sources      Collection   Collection   Assigned         Quality      Agrees   Baseline        Limitations
                                                              Defined     Identified Method         Frequency                     Assessment   to                       Disclosed
                                                                                       Described    &                             Done         Source
                                                                                                    Schedule
No. of active borrowers of institutions             Yes         No          No           No            No             No             Yes       Yes         Yes             N/a
supported by G/EGAD/MD programs
Utilization rate for entire loan guarantee          Yes         No          Yes          No           Yes             Yes            Yes       No11        Yes             Yes
portfolio
Increases in per-capita food production at          Yes         No          No           No            No             No             Yes       Yes         Yes             No
global/regional level
The number of delivery orders processed by        N/a12         No          No           No            No             No             No        No12       N/a13            N/a
the Office of Emerging Markets
Completed transactions                            N/a13         No          No           No            No             No             No        No12       N/a13            No

Increased number of joint publications              Yes         No          No           No            No             No             No        Yes         Yes             No




           11
                These data reported in the R4 report were not credible.
            12
               The Center did not establish baselines for these two indicators in either the R4 report or strategic planning documentation. However, because the
   likely baseline at program inception would have been zero, we have not made any recommendations in this regard.
